<html>
<title> - TRANSFORMING AMERICA'S AIR TRAVEL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                   TRANSFORMING AMERICA'S AIR TRAVEL

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 11, 2015

                               __________

                           Serial No. 114-22

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       
       
       
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-227PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
   
   
   
   
   
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama                   ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                             June 11, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    12

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    15

                               Witnesses:

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Mission 
  Directorate, NASA; and Member FAA Research and Development 
  Advisory Committee
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. Dennis Filler, Director, William J. Hughes Technical Center, 
  FAA
    Oral Statement...............................................    31
    Written Statement............................................    33

Mr. William Leber, Chair, National Research Council report titled 
  ``Transformation in the Air--A Review of the FAA Research 
  Plan;'' and Vice President, Air Traffic Innovations, PASSUR 
  Aerospace
    Oral Statement...............................................    46
    Written Statement............................................    47

Dr. R. John Hansman, T. Wilson Professor of Aeronautics & 
  Astronautics; Director, MIT International Center for Air 
  Transportation, Massachusetts Institute of Technology; and 
  Chair, FAA Research and Development Advisory Committee
    Oral Statement...............................................    54
    Written Statement............................................    55

Dr. Greg Hyslop, Senior Member, American Institute for 
  Aeronautics and Astronautics; Vice President and General 
  Manager, Boeing Research & Technology; Chief Engineer, 
  Engineering, Operations & Technology, the Boeing Company
    Oral Statement...............................................    59
    Written Statement............................................    61

Discussion.......................................................    68

             Appendix I: Answers to Post-Hearing Questions

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Mission 
  Directorate, NASA; and Member FAA Research and Development 
  Advisory Committee.............................................    82

Mr. Dennis Filler, Director, William J. Hughes Technical Center, 
  FAA............................................................    98

Mr. William Leber, Chair, National Research Council report titled 
  ``Transformation in the Air--A Review of the FAA Research 
  Plan;'' and Vice President, Air Traffic Innovations, PASSUR 
  Aerospace......................................................   128

Dr. R. John Hansman, T. Wilson Professor of Aeronautics & 
  Astronautics; Director, MIT International Center for Air 
  Transportation, Massachusetts Institute of Technology; and 
  Chair, FAA Research and Development Advisory Committee.........   132

Dr. Greg Hyslop, Senior Member, American Institute for 
  Aeronautics and Astronautics; Vice President and General 
  Manager, Boeing Research & Technology; Chief Engineer, 
  Engineering, Operations & Technology, the Boeing Company.......   137

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   148
 
                   TRANSFORMING AMERICA'S AIR TRAVEL

                              ----------                              


                        THURSDAY, JUNE 11, 2015

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:02 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Babin. Good morning. The Subcommittee on Space 
will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time. Without objection, the 
Chairman of the Transportation and Infrastructure Committee's 
Subcommittee on Aviation, Mr. LoBiondo, will be allowed to 
participate in today's hearing.
    And welcome to today's hearing titled ``Transforming 
America's Air Travel.'' I recognize myself for five minutes for 
an opening statement.
    Before we begin this morning, I want to thank Chairman 
Lamar Smith and my colleagues for the opportunity to serve as 
the Chairman of the Space Subcommittee. It is truly an honor 
and a privilege. And my district includes the Johnson Space 
Center and many of National Aeronautics and Space 
Administration's astronauts, scientists, engineers, 
technicians, and contractors, and they call the 36th district 
of Texas home. Because of this, I am keenly aware of the 
opportunities and challenges that face NASA and our aerospace 
sector. I look forward to working with Chairman Smith, Ranking 
Member Johnson, Ranking Member Edwards, and this Congress.
    I also want to thank Chairman Palazzo for his leadership 
during what has been a very busy spring for the Space 
Subcommittee. Thankfully, he is moving to the Appropriations 
Subcommittee on Commerce, Science, and Justice which still has 
jurisdiction over NASA spending, so I am certain that we will 
stay in touch.
    This year marks the 100th anniversary of the founding of 
the National Advisory Committee for Aeronautics, also known as 
NACA. Founded in 1915 to supervise and direct the scientific 
study of the problems of flight with a view to their practical 
solution, NACA was ultimately incorporated into NASA when 
Congress passed the National Aeronautics and Space Act of 1958. 
That same year, Congress also established the Federal Aviation 
Administration's predecessor, the Federal Aviation Agency. 
NACA's legacy of civilian aeronautics and aviation research and 
development is now carried out by NASA and FAA.
    The aeronautics research carried out by these agencies is 
vital to our nation's prosperity. Aviation accounts for $1.5 
trillion in economic activity and a $78.3 billion positive 
trade balance. Civil and general aviation is responsible for 
11.8 million jobs in the U.S. and generates 5.4 percent of our 
gross domestic product. Put simply, aviation is one of the 
pillars of our economy.
    And while we currently enjoy the benefits of our nation's 
early investments in aeronautics R&D, other nations are now 
attempting to challenge our leadership. This is particularly 
troubling when the largest growth sector is not here in the 
United States but in Asia. In order to maintain our leadership, 
we must strategically prioritize our government investments, 
provide a competitive environment for industry, and coordinate 
and clearly define public and private sector efforts to 
maximize efficiencies and minimize duplication that may crowd 
out investment. If we are successful in these efforts, the 
potential aerospace breakthroughs in the coming decades are 
very, very promising.
    Advances in hypersonic flight could revolutionize the 
aerospace sector. Continued research into supersonics and air 
traffic management could greatly reduce flight times. 
Structural and material research stands to improve safety and 
save lives. Unmanned aircraft systems, or UAS, research and 
development could benefit agriculture, search and rescue, 
fighting forest fires, mapping and surveying, and even package 
delivery.
    In order to realize these benefits, we must be ever 
vigilant. NASA and FAA will have to ensure that the research 
they support does not duplicate private sector investments. For 
instance, industry has a considerable incentive to develop 
safer, more reliable, and more efficient aircraft. Federal 
intervention and support should be limited to high-risk, high-
reward research that the private sector cannot or will not do 
on their own. Without such prioritization, valuable resources 
risk being diluted among disparate tasks. This requires a great 
deal of coordination between NASA and the FAA.
    Many of the activities that we will be discussing today are 
conducted by both these agencies. In 2003, Congress established 
the Joint Planning Development Office, or JPDO, to coordinate 
efforts between NASA, FAA, and other agencies to develop the 
Next Generation Air Transportation System, known as NextGen. 
JPDO functions were recently rolled into the NextGen program 
office, but the issue highlights an overarching theme that 
Congress will have to monitor. As budgets tighten, NASA should 
not be used as a piggy bank for other agency requirements.
    As many have pointed out in the past, the first A in NASA 
is aeronautics. But we need to be clear: aeronautics is more 
than just air traffic management, aviation efficiency, and 
green fuels. NASA has a long and proud tradition of pushing the 
boundaries of the possible, a legacy that it should ensure 
continues into the future. Similarly, we need to ensure that 
FAA is focused on safety and efficiency. That clearly requires 
coordination, but hopefully will not cause wasteful duplication 
or sacrifice the cutting-edge breakthroughs we're used to.
    Aerospace and aviation research promise many benefits, but 
not without challenges. NextGen continues to lack clearly 
defined cost, schedule, and performance parameters. Last year, 
the FAA Inspector General testified that the initial cost 
estimate of $40 billion split between federal and private 
sector investment could double or even triple, and that 
implementation could take an additional decade. This is 
unacceptable. Congress either needs better baselines and 
metrics to track progress, or a different plan. In the interim, 
I fear that valuable R&D funding, the very seed corn of future 
prosperity, is being used to simply maintain World War II-era 
systems.
    The challenges are also near term. While Congress waits for 
NextGen details, reports of potential cyber vulnerabilities to 
aircraft and NextGen systems proliferate in the press. While 
recent allegations may be overstated, respected and 
knowledgeable experts, such as the Government Accountability 
Office and the National Research Council, have warned that 
cybersecurity should play a more prominent role in NextGen 
development.
    I want to conclude by thanking our witnesses for being here 
today to discuss aeronautics and aviation research. This highly 
esteemed panel will certainly inform the Committee's 
consideration of the Research, Engineering, and Development 
activities at FAA. I look forward to their testimony and I 
appreciate their participation.
    [The prepared statement of Chairman Babin follows:]

              Prepared Statement of Subcommittee on Space
                          Chairman Brian Babin

    Before we begin this morning, I want to thank Chairman Smith and my 
colleagues for the opportunity to serve as the Chairman of the Space 
Subcommittee. It is truly an honor and a privilege. My district 
includes the Johnson Space Center and many of National Aeronautics and 
Space Administration's (NASA) astronauts, scientists, engineers, 
technicians, and contractors call the 36th district of Texas home. 
Because of this, I am keenly aware of the opportunities and challenges 
facing NASA and the aerospace sector. I look forward to working with 
Chairman Smith, Ranking Member Johnson, and Ranking Member Edwards this 
Congress. I also want to thank Chairman Palazzo for his leadership 
during what has been a very busy spring for the Space Subcommittee. 
Thankfully he is moving to the Appropriations Subcommittee on Commerce, 
Science, and Justice which has jurisdiction over NASA spending, so I am 
certain we will stay in touch.
    This year marks the 100th anniversary of the founding of the 
National Advisory Committee for Aeronautics, or ``NACA.'' Founded in 
1915 to ``supervise and direct the scientific study of the problems of 
flight with a view to their practical solution,'' NACA was ultimately 
incorporated into NASA when Congress passed the National Aeronautics 
and Space Act of 1958. That same year, Congress also established the 
Federal Aviation Administration's (FAA) predecessor, the Federal 
Aviation Agency. NACA's legacy of civilian aeronautics and aviation 
research and development (R&D) is now carried out by NASA and FAA.
    The aeronautics research carried out by these agencies is vital to 
our nation's prosperity. Aviation accounts for $1.5 trillion in 
economic activity and a $78.3 billion positive trade balance. Civil and 
general aviation is responsible for 11.8 million jobs in the U.S. and 
generates 5.4 percent of our gross domestic product. Put simply, 
aviation is one of the pillars of our economy.
    While we currently enjoy the benefits of our nation's early 
investments in aeronautics R&D, other nations are now attempting to 
challenge our leadership. This is particularly troubling when the 
largest growth sector is not here in the U.S., but in Asia. In order to 
maintain our leadership, we must strategically prioritize our 
government investments, provide a competitive environment for industry, 
and coordinate and clearly define public and private sector efforts to 
maximize efficiencies and minimize duplication that may crowd-out 
investment.
    If we are successful in these efforts, the potential aerospace 
breakthroughs in the coming decades are promising. Advances in 
hypersonic flight could revolutionize the aerospace sector. Continued 
research into supersonics and air traffic management could greatly 
reduce flight times. Structural and material research stands to improve 
safety and save lives. Unmanned Aircraft Systems (UAS) R&D could 
benefit agriculture, search and rescue, fighting forest fires, mapping 
and surveying, and even package delivery.
    In order to realize these benefits, we must be ever-vigilant. NASA 
and FAA will have to ensure that the research they support does not 
duplicate private sector investments. For instance, industry has a 
considerable incentive to develop safer, more reliable, and more 
efficient aircraft. Federal intervention and support should be limited 
to high-risk, high-reward research that the private sector cannot or 
will not do on their own. Without such prioritization, valuable 
resources risk being diluted among disparate tasks. This requires a 
great deal of coordination between NASA and the FAA. Many of the 
activities we will be discussing today are conducted by both these 
agencies.
    In 2003, Congress established the Joint Planning Development Office 
(JPDO) to coordinate efforts between NASA, FAA, and other agencies to 
develop the Next Generation Air Transportation System (NextGen). JPDO 
functions were recently rolled into the NextGen program office, but the 
issue highlights an overarching theme that Congress will have to 
monitor. As budgets tighten, NASA should not be used as a piggy-bank 
for other agency requirements. As many have pointed out in the past, 
the first ``A'' in NASA is ``aeronautics.'' But we need to be clear--
aeronautics is more than just air traffic management, aviation 
efficiency, and green fuels. NASA has a long and proud tradition of 
pushing the boundaries of the possible, a legacy it should ensure 
continues into the future. Similarly, we need to ensure FAA is focused 
on safety and efficiency. That clearly requires coordination, but 
hopefully it will not cause wasteful duplication or sacrifice cutting-
edge breakthroughs.
    Aerospace and aviation research promise many benefits, but not 
without challenges. NextGen continues to lack clearly defined cost, 
schedule, and performance parameters. Last year, the FAA Inspector 
General testified that the initial cost estimate of $40 billion split 
between federal and private sector investment could double or triple, 
and that implementation could take an additional decade. This is 
unacceptable. Congress either needs better baselines and metrics to 
track progress, or a different plan. In the interim, I fear that 
valuable R&D funding, the seed corn of future prosperity, is being used 
to simply maintain World War II-era systems.
    The challenges are also near-term. While Congress waits for NextGen 
details, reports of potential cyber vulnerabilities to aircraft and 
NextGen systems proliferate in the press. While recent allegations may 
be overstated, respected and knowledgeable experts, such as the 
Government Accountability Office and the National Research Council, 
have warned that cyber security should play a more prominent role in 
NextGen development.
    I want to conclude by thanking our witnesses for being here today 
to discuss aeronautics and aviation research. This highly esteemed 
panel will certainly inform the Committee's consideration of the 
Research, Engineering, and Development activities at FAA. I look 
forward to their testimony and appreciate their participation.

    Chairman Babin. I now recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Thank you very much, Mr. Chairman, and good 
morning, and welcome also to our panel of witnesses. Also, 
welcome to my colleague, Mr. LoBiondo from the Transportation 
and Infrastructure Committee. I appreciate your participation 
today.
    Mr. Chairman, I really want to thank you for calling this 
hearing to review the current state of U.S. civil aeronautics 
research and development. But before I begin, I also want to 
congratulate you on your Chairmanship of this Subcommittee. I 
had a wonderful, what started out as a working relationship 
with former Chairman Palazzo and quickly became a friendship, 
and I look forward to the same relationship as we move forward. 
I know that we share many goals, such as maintaining a robust 
aerospace industry, ensuring that our modernization of the air 
traffic management system is done safely, and sustaining the 
strength of NASA and our space program going forward. I look 
forward to working with you during what remains of this session 
on identifying the common ground that will enable us to develop 
policies and legislation reflective of this Committee's history 
of bipartisanship.
    A century ago, our nation had the foresight to create the 
National Advisory Committee for Aeronautics (NACA). NACA, which 
became NASA, led many breakthroughs in research and design that 
changed the course of aeronautics and aviation. Today, U.S. 
civil aviation is a symbol of our nation's ingenuity and 
ability to design, develop, and manufacture products that are 
second to none in the world. And as many of my colleagues know, 
aviation is vital to our economy and to our mobility, as 
pointed out by the Chairman. In fact, the numbers are 
staggering. Aviation contributes more than $1.5 trillion 
annually to the U.S. economy. It supports 11.8 million direct 
and indirect jobs, and, it is one of the few U.S. industries 
that generates a positive trade balance, something we should 
consider for today, a positive contribution of $78.3 billion in 
2014.
    However, it would be unwise for us to just rest on our 
laurels. Countries with both mature and less mature 
capabilities are investing in aviation and aeronautics for 
their strategic contributions to technology, education, 
workforce development, and global competitiveness. And the 
market for air travel is changing, with growth in the Asia 
Pacific region projected to dramatically expand world air 
traffic by 2050.
    With such growth also come challenges. For example, in 
2013, U.S. airlines burned 16 billion gallons of jet fuel, and 
the cost of delays to U.S. airlines during that same year was 
$8.1 billion. Increasing fuel efficiency, lessening delays, and 
minimizing negative environmental effects such as noise and 
carbon emissions are at the heart of strengthening our civil 
aviation system.
    To that end, experts recognized 15 years ago that the 
existing approach to managing air transportation was becoming 
operationally obsolete, and there was a strong concern that the 
National Airspace System was approaching capacity. Congress 
established the Next Generation Air Transportation System 
initiative--known as NextGen--in its 2003 Vision 100 Federal 
Aviation Administration Reauthorization to address just these 
concerns. But over the past ten years, FAA's overall progress 
in developing NextGen has been slower than expected and the 
agency is now focused on implementing industry recommendations 
for near-term benefits.
    Mr. Chairman, research and development is providing the 
tools FAA will need to implement NextGen and improve the 
nation's aviation system so that it can respond to changing and 
expanding transportation needs. Because of the lengthy 
gestation period needed to move forward from concept to 
deployment, industry has often been reluctant or unable to 
apply resources to high-risk, fundamental aeronautics R&D, an 
investment which is the precursor to bringing new technologies 
and capabilities to market.
    As a result, the federal government, primarily NASA and 
FAA, in partnership with industry and universities, plays a 
critical role in carrying out the R&D that enables advances in 
aviation. So it does concern me, as I am sure it also concerns 
the Chairman, that Congress has yet to receive FAA's National 
Aviation Research Plan for 2015, and even for 2014, despite 
that fact that those plans are required to be submitted to 
Congress no later than the time of the President's annual 
budget submission. Majority and Minority Members on this 
Committee need those FAA research plans to inform a 
reauthorization of FAA's research and development activities, 
to carry out oversight, and to assess the contributions that 
R&D makes to NextGen's implementation.
    For example, we need to know what kind of R&D activities 
are planned in cybersecurity, software assurance, human 
factors, and the certification of new technologies into the 
National Airspace System, all critical areas for the future 
viability and safety of the National Airspace System.
    So I'm looking forward to hearing from our witnesses on the 
status of aviation R&D activities, because, you see, Mr. 
Chairman, we need to work together to leverage the expertise 
and capabilities of government, industry, and our universities. 
Our reliance on aviation is indisputable, but the challenges 
are steep if we are to maintain our global preeminence as well 
as the safety of the nation's aviation system. I'm confident 
that properly funded research by NASA and FAA, in collaboration 
with industry and university partners, will enable us to 
achieve that goal.
    Again, I want to thank our witnesses for appearing before 
the Subcommittee, and I look forward to your testimony. I thank 
you, and I yield back.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good morning, and welcome to our panel of witnesses. Mr. Chairman, 
thank you for calling this hearing to review the current state of U.S. 
civil aeronautics research and development.
    But before I start, allow me to congratulate you on your 
Chairmanship of this Subcommittee. I know that we share many goals, 
such as maintaining a robust aerospace industry, ensuring that our 
modernization of the air traffic management is done safely, and 
sustaining the strength of NASA and our space program going forward.
    I look forward to working with you this session on identifying the 
common ground that will enable us to develop policies and legislation 
reflective of this Committee's history of bipartisanship.
    A century ago, our nation had the foresight to create the National 
Advisory Committee for Aeronautics (NACA). NACA, which became NASA, led 
many breakthroughs in research and design that changed the course of 
aeronautics and aviation.
    Today, U.S. civil aviation is a symbol of our nation's ingenuity 
and ability to design, develop, and manufacture products that are 
second to none. And, as many of my colleagues know, aviation is vital 
to our economy and mobility.

The numbers are staggering:

    <bullet>  Aviation contributes more than 1.5 trillion dollars 
annually to the U.S. economy.

    <bullet>  It supports 11.8 million direct and indirect jobs.

    <bullet>  And, it is one of the few U.S. industries that generates 
a positive trade balance--a positive contribution of 78.3 billion 
dollars in 2014.

    However, it would be unwise for us to rest on our laurels.
    Countries with both mature and less mature capabilities are 
investing in aviation and aeronautics for their strategic contributions 
to technology, education, workforce development, and global 
competitiveness. And, the market for air travel is changing, with 
growth in the Asia Pacific region projected to dramatically expand 
world air traffic by 2050. With such growth come challenges.
    For example, in 2013, U.S. airlines burned 16 billion gallons of 
jet fuel, and the cost of delays to U.S. airlines during that same year 
was 8.1 billion dollars. Increasing fuel efficiency, lessening delays, 
and minimizing negative environmental effects such as noise and carbon 
emissions are at the heart of strengthening our civil aviation system.
    To that end, experts recognized fifteen years ago that the existing 
approach to managing air transportation was becoming operationally 
obsolete, and there was strong concern that the National Airspace 
System was approaching capacity.
    Congress established the Next Generation Air Transportation System 
initiative-now known as NextGen--in its 2003 Vision 100 Federal 
Aviation Administration Reauthorization to address these concerns. Over 
the past ten years, FAA's overall progress in developing NextGen has 
been slower than expected and the agency is now focused on implementing 
industry recommendations for near-term benefits.
    Mr. Chairman, research and development--R&D--is providing the tools 
FAA will need to implement NextGen and improve the nation's aviation 
system so that it can respond to changing and expanding transportation 
needs.
    Because of the lengthy gestation period needed to move from concept 
to deployment, industry has often been reluctant or unable to apply 
resources to high risk, fundamental aeronautics R&D--an investment 
which is the precursor to bringing new technologies and capabilities to 
market.
    As a result, the federal government, primarily NASA and FAA, in 
partnership with industry and universities, plays a critical role in 
carrying out the R&D that enables advances in aviation.
    So it concerns me, as I am sure it also concerns the Chairman, that 
Congress has yet to receive FAA's National Aviation Research Plan for 
2015, and even for 2014, despite that fact that those plans are 
required to be submitted to Congress no later than the time of the 
President's annual budget submission.
    Majority and Minority Members on this Committee need those FAA 
research plans to inform a reauthorization of FAA's research and 
development activities, to carry out oversight, and to assess the 
contributions that R&D makes to NextGen implementation.
    For example, we need to know what kind of R&D activities are 
planned in cybersecurity, software assurance, human factors, and the 
certification of new technologies into the national airspace system-all 
critical areas for the future viability and safety of the National 
Airspace System.
    So I look forward to hearing from our witnesses on the status of 
aviation R&D activities.
    Because, Mr. Chairman, we need to work together to leverage the 
expertise and capabilities of Government, industry, and our 
universities. Our reliance on aviation is indisputable, but the 
challenges are steep if we are to maintain our global preeminence as 
well as the safety of the nation's aviation system. I am confident that 
properly funded research by NASA and FAA, in collaboration with 
industry and university partners, will enable us to achieve that goal.
    Again, I want to thank our witnesses for appearing before our 
Subcommittee, and I look forward to your testimony.
    Thank you, and I yield back.

    Chairman Babin. Thank you, Ms. Edwards. I appreciate that, 
and I too am looking forward to working with you.
    I'd like to introduce our witnesses at this time, and the 
first witness is Dr. Jaiwon Shin. He's the NASA Associate 
Administrator for the Aeronautics Research Mission Directorate. 
Dr. Shin also co-chairs the National Science and Technology 
Council's Aeronautics, Science, and Technology Committee and is 
also a member of the FAA Research and Development Advisory 
Committee.
    And now I'd like to recognize the gentleman from New 
Jersey, Mr. LoBiondo, who is the Chair of the Aviation 
Subcommittee. Thank you for being here.
    Mr. LoBiondo. Yes, Mr. Chairman, thank you, and 
congratulations. Thank you for the opportunity to sit in on 
this hearing this morning. Ms. Edwards, thank you very much. 
Our committees have a lot in common with a lot of common goals 
and very important issues to discuss, and that's why I'm very 
pleased this morning to welcome and introduce Dennis Filler, 
who is the Director of the Federal Aviation Administration's 
premier facility in the world for traffic management and 
federal laboratories. There are almost in total a little bit 
under 5,000 people, incredibly dedicated people who are very 
inspiring with the work that they do, again for the premier 
facility in the world for safety and security research and 
development. Dennis has an expertise with the FAA, joining it 
in 1992. He is a United States Military Academy graduate from 
West Point, and incredible skills in both people management but 
maybe more importantly, understanding that which takes place 
that sometimes is extremely complicated, and I enjoy hearing 
the stories of when some of the incredible, smart engineers are 
discussing their solutions. Dennis actually asked to have the 
formulas explained to him so he can review their thought 
process through this. So thank you for allowing Dennis Filler 
of the FAA's Directorate to be able to testify today.
    Chairman Babin. Thank you, Mr. Chairman. I appreciate you 
being here this morning.
    And Bill Leber is the Co-Chair for the Committee to Review 
the FAA Research Plan on Certification of New Technologies into 
the National Airspace System. In addition to serving in this 
position, Mr. Leber is also the Vice President for Air Traffic 
Innovations at PASSUR Aerospace Inc. Thank you for being here.
    Mr. John Hansman is the T. Wilson Professor of Aeronautics 
and Astronautics at the Massachusetts Institute of Technology, 
or MIT. He is also the Director of MIT's International Center 
for Air Transportation and the Chair of FAA's Research and 
Development Advisory Committee. Dr. Hansman is a fellow of the 
American Institute for Aeronautics and Astronautics.
    Dr. Greg Hyslop is the Senior Member at the AIAA and Vice 
President and General Manager of Boeing Research and Technology 
and the Chief Engineer for Engineering, Operations, and 
Technology at the Boeing Company.
    And I now recognize Dr. Shin for five minutes. Dr. Shin.

                 TESTIMONY OF DR. JAIWON SHIN,

                    ASSOCIATE ADMINISTRATOR,

             AERONAUTICS MISSION DIRECTORATE, NASA;

                  AND MEMBER FAA RESEARCH AND

                 DEVELOPMENT ADVISORY COMMITTEE

    Dr. Shin. Good morning. Chairman Babin, Ranking Member 
Edwards, Chairman LoBiondo, and Congressman Knight, thanks so 
much for this opportunity to testify about NASA's aeronautics 
R&D activities.
    NASA's Aeronautics Research Program is making air travel 
cleaner, safer, and more efficient by developing revolutionary 
technologies to address a growing demand for mobility, severe 
challenges to sustainability of energy and the environment, and 
the advances in information, communication and automation 
technologies. NASA's research directly benefits the passengers 
and businesses who rely on aviation every day in the U.S. 
aviation industry to continue to grow and maintain global 
competitiveness.
    NASA develops game-changing concepts, algorithms and 
technologies to safely increase throughput and efficiency of 
the National Airspace System. We work in close partnership with 
the FAA and the aviation community to enable and extend the 
benefits of NextGen. Our research programs also focus on major 
leaps in the safety, efficiency, and environmental performance 
of subsonic fixed and rotary-wing aircraft to meet growing 
long-term civil aviation needs and also pioneering low-boom 
supersonic flight to achieve new levels of global mobility and 
sustaining hypersonic competency for national needs.
    Partnerships are an essential part of NASA aeronautics 
activities. Our partners include but are not limited to other 
government agencies, U.S. aviation industry, and universities. 
One of our most important government partners is the FAA. Over 
the last several years, NASA, the FAA, and other federal agency 
members of the Joint Planning and Development Office, or JPDO, 
by working together defined the vision for the NextGen and 
established a roadmap to get there over the long term. The 
FAA's Interagency Planning Office continues to lead the 
coordination of several key technology focus areas such as the 
prioritization of UAS-related research and development across 
federal agencies.
    NASA's Air Traffic Management research has been developing 
advanced ATM tools that will enable more accurate predictions 
about air traffic, flow, weather, and routing. NASA also has 
been working to ensure that these tools work well together and 
demonstrate the potential of widespread use throughout the 
system.
    Our successful model for NASA/FAA collaboration is embodied 
in Research Transition Teams, or RTTs. RTTs are designed to 
enhance progress for NextGen advancement in critical areas and 
effectively transition advanced capabilities to FAA for 
implementation. RTTs serve as the bridge between NASA's long-
term, game-changing technology R&D and the FAA's R&D to support 
near-term implementation and certification. Under RTTs, NASA 
and FAA developed joint research plans and fund their 
respective portions of the plan research according to the 
nature of the research and their relatively capabilities.
    Over the last four years, I am happy to report that NASA 
has transitioned to five major technologies to FAA. NASA is 
also researching unmanned aerial systems and, more broadly, 
inclusive autonomous systems and technologies. NASA's UAS 
Integration into NAS project is developing technologies that 
address sense and avoid, communication, and human- machine 
interaction challenges in order to enable safe and routine UAS 
access to the NAS.
    Through close coordination with FAA's UAS Integration 
Office, industrial standards organizations and international 
organizations, NASA's research provides validated findings that 
inform the FAA's policy and rulemaking processes.
    In order to safely enable widespread, small, civilian UAS--
which are less than 55 pounds--operations at low altitudes, 
NASA has initiated research in UAS Traffic Management, or UTM. 
The goal of UTM is to enable safe and efficient low-altitude 
airspace operations by providing critical services such as 
airspace design and geo-fencing, separation management, weather 
and wind avoidance, routing, and contingency management.
    Just as our aeronautics R&D investment over the last 100 
years have shaped the aviation system of today, our current 
portfolio is setting the foundation for the next 100 years of 
aviation innovation. Business as usual is not going to 
guarantee the United States' preeminence in the global market 
nor will it enable us to meet these challenges. We must stay 
with our proven formula of leadership through technological 
superiority. NASA aeronautics has a unique and important role 
in that formula. Long-term, revolutionary aeronautics research 
has long provided the basis for new concepts and capabilities 
leading to industry innovation and societal benefits.
    ARMD will continue its role of undertaking research and 
development that falls outside the scale, risk and payback 
criteria that govern commercial investment.
    Thank you again for the opportunity to testify today. I 
look forward to answering any questions you may have.
    [The prepared statement of Dr. Shin follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
    
    Chairman Babin. Thank you, Dr. Shin.
    I'd like to recognize Mr. Filler now for five minutes. Mr. 
Filler.

           TESTIMONY OF MR. DENNIS FILLER, DIRECTOR,

            WILLIAM J. HUGHES TECHNICAL CENTER, FAA

    Mr. Filler. Good morning. Chairman Babin, Ranking Member 
Edwards, and Members of the Subcommittee, thank you for this 
opportunity to appear before you today to discuss the Federal 
Aviation Administration's aviation research and development 
portfolio. I am Dennis Filler. I'm the Director of the William 
J. Hughes Technical Center. I also serve as the FAA's Director 
of Research. In that capacity, I am responsible for managing 
the FAA's aviation research program.
    Aviation is a vital resource for the United States. To 
maximize the opportunities that the aviation industry provides, 
the FAA must not only maintain, but continually improve, the 
National Airspace System, or NAS. Collaborative, needs-driven 
research, engineering and development is central to this 
process. The FAA's research portfolio enables the United States 
to remain a world leader in providing safe, efficient, and 
environmentally sound air transportation.
    FAA research, and specifically research conducted at our 
Technical Center in Atlantic City, has contributed to making 
aviation safer, both at home and abroad. For more than 50 
years, the FAA's world-renowned researchers, scientists, and 
engineers have developed technologies, standards, and 
procedures that prevent inflight fires and improve 
survivability. The National Transportation Safety Board 
recognizes the Technical Center's contributions in fire safety 
research saved lives during the horrific Asiana Airlines crash 
in 2013.
    In addition to making aviation safer, FAA research is 
making it more efficient. Key NextGen foundational programs 
such as ADS-B, ERAM, and DataComm have all been developed, 
tested or began their nationwide deployment at the Technical 
Center through our unique engineering, test, evaluation and 
sustainment activities. Collectively, these programs will 
deliver operational efficiencies into the National Airspace 
System.
    Our applied research is also delivering near-term benefits. 
For example, our research into minimum wake turbulence 
separation standards has allowed us to safely recategorize 
distances needed between aircraft, which increases efficiency 
and reduces flight delays. Because of wake RECAT, FedEx can 
take advantage of a 13 percent increase in departure capacity 
at Memphis, and at Atlanta's Hartsfield-Jackson Airport, Delta 
Airlines projects reduced delays will save $14 to $19 million 
in operating costs over a one-year period.
    Greater efficiency also reduces the environmental impact of 
aviation. The FAA is invested in accelerating new technologies 
that reduce fuel burn, noise and emissions through the 
Continuous Lower Energy Emissions and Noise program, or CLEEN. 
This public-private partnership leverages limited federal funds 
to develop technology to make today's aircraft fleet quieter 
and more fuel-efficient.
    Aviation is constantly evolving and there will always be a 
need for applied research in response to these changing needs. 
That is why we are conducting robust research around new 
entrants to the airspace such as unmanned aircraft systems, or 
UAS.
    Recently, we announced the selection of a new Center of 
Excellence for UAS, which will be led by a team from 
Mississippi State University. The Center of Excellence will 
focus on research, education and training in areas critical to 
the safe integration of UAS into the nation's airspace. Also, 
as part of the Pathfinder program, we're leveraging industry 
interests in UAS applications to further explore other 
integration opportunities. The trials performed in this program 
could yield valuable data to further FAA-approved UAS 
operations.
    While we respect our past and its legacy, our vision is 
firmly fixed on the future. We're committed to ensuring that 
the United States continues to lead the world in the 
development and implementation of aviation technology while we 
continue to operate the safest and most efficient aviation 
system in the world.
    This concludes my statement. I'll be happy to answer any of 
your questions.
    [The prepared statement of Mr. Filler follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Chairman Babin. Thank you, Mr. Filler. Thank you very much.
    Now I recognize Mr. Leber for five minutes.

                TESTIMONY OF MR. WILLIAM LEBER,

         CHAIR, NATIONAL RESEARCH COUNCIL REPORT TITLED

             ``TRANSFORMATION IN THE AIR--A REVIEW

                  OF THE FAA RESEARCH PLAN;''

                      AND VICE PRESIDENT,

           AIR TRAFFIC INNOVATIONS, PASSUR AEROSPACE

    Mr. Leber. Thank you, and good morning, Mr. Chairman, 
Ranking Member, Members of the Committee. Thank you for the 
opportunity to speak to you today on issues concerning civil 
aeronautics research and the FAA reauthorization.
    I'm here today in my capacity as one of the Co-Chairs of 
the Committee of the National Research Council, which recently 
reviewed an FAA research plan for certification of new 
technologies. That report was requested in the FAA 
Modernization and Reform Act of 2012. It was released on 
Monday, June 8, 2015.
    Mr. Chairman, before commenting on the findings of our 
report, I want to make clear that our committee had a very 
narrow and limited charge. We were asked to review and comment 
on this one research plan. The FAA has many other plans for 
research and for other aspects of the implementation of 
NextGen. We were not asked to and did not review those other 
plans.
    Our committee found that the February 2014 certification 
research plan does not demonstrate how integration of aircraft, 
ground systems, and procedures will occur in the National 
Airspace System. It in particular omitted any substantive 
discussion of the air segment. Successfully demonstrating how 
integration will occur will create confidence in the 
implementation and, we believe, attract stakeholder and 
operator investment
     Mr. Chairman, our committee believes that all stakeholders 
will benefit substantially from the explanation of the end-to-
end processes necessary to certify, approve, and implement 
advanced NextGen capabilities beyond the mid-term, that is, 
five to seven years. In our view, a new FAA plan should outline 
how the agency can best coordinate its research with other 
relevant organizations, particularly NASA, which conducts 
significant research of relevance on air traffic systems.
    I thank you for the opportunity to speak to you about this 
important National Research Council report, and I look forward 
to addressing your questions.
    [The prepared statement of Mr. Leber follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
  
    
    Chairman Babin. Thank you, Mr. Leber.
    I recognize Dr. Hansman for five minutes.

               TESTIMONY OF DR. R. JOHN HANSMAN,

               T. WILSON PROFESSOR OF AERONAUTICS

                   & ASTRONAUTICS; DIRECTOR,

                    MIT INTERNATIONAL CENTER

                    FOR AIR TRANSPORTATION,

             MASSACHUSETTS INSTITUTE OF TECHNOLOGY;

                  AND CHAIR, FAA RESEARCH AND

                 DEVELOPMENT ADVISORY COMMITTEE

    Dr. Hansman. Good morning. Chairman Babin, Ranking Member 
Edwards, and Members of the Committee, thanks for the 
opportunity to be here today to talk about research and its 
importance in aviation in the United States.
    Research and development is vital to maintaining the 
safety, efficiency, environmental performance, and security of 
aviation in the United States and the rest of the world. The 
FAA oversees and operates the largest and most complicated 
National Airspace System in the world, and it needs R&D to 
maintain and improve the performance of the system.
    As Chair of the REDAC Committee, I'll just mention some of 
the things that we have identified to the FAA of some of the 
strategic areas that we think are important. One that's been 
mentioned is the integration of UAS in the NAS. Another has 
also been mentioned, the efficient operational approval of new 
capabilities into the system to enable things like NextGen, so 
we have the technologies. We have to figure out how we actually 
get them operationally approved.
    Human factors of increasingly automated systems as the 
Asiana accident represents, we have more automation in 
airplanes. We have to understand how humans interact with these 
things, both in the air and on the ground.
    Data integrity and cybersecurity has also been mentioned. 
Cybersecurity is an emerging concern in aviation. It's been 
around for a long time. Some of the vulnerabilities may be 
overstated but this is clearly an important area for research.
    There's also opportunities we feel to leverage Big Data. 
You know, the airspace system actually generates one of the 
nicest sets of data that's out there, and it gives us an 
opportunity to understand the dynamics of this complicated 
system.
    Also, the other thing that the FAA needs to do is do 
research to be prepared to either use or approve new 
technologies as they emerge. For example, additive 
manufacturing, as we start to think about building airplanes 
with printing technology, do we have the understanding to make 
those approvals? Or the impact of portable devices, the iPhones 
and iPads that we all carry around, can change how cockpits and 
airplanes are operated, but there are systemic issues in terms 
of both vulnerability and how those would interact with the 
rest of the system, so we need to be doing research to support 
all those.
    I'm happy to take any further questions or talk in more 
detail.
    [The prepared statement of Dr. Hansman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Babin. Thank you, Dr. Hansman.
    Now I recognize Dr. Hyslop for five minutes.

                 TESTIMONY OF DR. GREG HYSLOP,

               SENIOR MEMBER, AMERICAN INSTITUTE

               FOR AERONAUTICS AND ASTRONAUTICS;

              VICE PRESIDENT AND GENERAL MANAGER,

                 BOEING RESEARCH & TECHNOLOGY;

                  CHIEF ENGINEER, ENGINEERING,

                    OPERATIONS & TECHNOLOGY,

                       THE BOEING COMPANY

    Dr. Hyslop. Thank you, Chairman Babin, Ranking Member 
Edwards, and distinguished Members of the Committee. Thank you 
for the opportunity to testify about the importance of the 
Federal Aviation Administration's research, engineering, and 
development programs to our nation's continued leadership in 
aviation.
    While I currently serve as Vice President and General 
Manager of Boeing Research and Technology, I'm speaking to you 
as a member of the American Institute of Aeronautics and 
Astronautics, the world's largest aerospace professional 
society serving more than 30,000 individual and 95 corporate 
members.
    The FAA is of significant importance to AIAA, so I'm 
pleased that Congress is moving forward with legislation to 
extend the agency's programs. Reauthorization with adequate 
funding levels will ensure that our nation remains the world 
leader in aerospace innovation.
    I've gained a great appreciation in my career for the 
important role that research and development plays in driving 
innovation. It is imperative that we continue to make strong 
investments in R&D. Wherever R&D goes, innovation and economic 
growth follow.
    More than half of our economic growth is due to 
technological innovation, yet U.S. government R&D as a 
percentage of our GDP has fallen by 60 percent since 1964. In 
contrast, China's R&D investment is the fastest growing of all 
advanced countries and is forecast to overtake the European 
Union and the United States by the end of this decade.
    It is important to note that when we fail to invest in new 
R&D programs, we risk losing talent and expertise that has 
taken us decades to cultivate and would be difficult to 
reconstitute. Our engineering talent is not a fixed asset. It 
is made up of people who need challenging new projects.
    It also is important to note that declines in government 
R&D funding discourage young people from pursuing careers in 
science, technology, engineering, and mathematics. It is no 
mystery why U.S. engineering ranks were wide and deep in the 
1960s and 1970s when U.S. R&D spending strong and the United 
States space program was prompting countless students to pursue 
STEM careers.
    We are on the cusp of implementing a major advancement in 
transportation that could be just as exciting: a space-based 
air traffic management system. Creating such a system will have 
the same kind of impact on air travel that the Interstate 
Highway System had on surface transportation. The Next 
Generation Air Transportation System will enable more efficient 
airline operations and yield annual cost savings in the 
billions of dollars. Now is the time for Congress to make 
strong financial commitment and set a firm timetable for 
NextGen's completion.
    NextGen also is an integral part of the industry's plan for 
reducing airplane CO<INF>2</INF> emissions. Commercial aviation 
accounts for two percent of manmade carbon emissions, but that 
percentage will increase as air traffic grows unless NextGen is 
completed. According to the International Air Transport 
Association, cutting flight times by just one minute per flight 
would prevent 4.8 tons of CO<INF>2</INF> emissions every year. 
Sustainable biofuels are another important element of the 
industry's emissions reduction plan. Industry and government 
have partnered to create, test, and evaluate biofuels. As the 
supply of biofuels increases, their price will decline, 
spurring airline use. We've made good progress but still have a 
lot of work ahead of us. It is important that the U.S. 
government stay involved in the development of sustainable 
biofuels.
    The third element of our industry's emissions reduction 
strategy is something the aerospace sector has been doing since 
its inception: developing ever-more-efficient airplanes. There 
are solid business reasons behind our work. Airlines always 
want greater efficiency. Now there are important environmental 
reasons as well for lighter, more aerodynamic airframes and 
more fuel-efficient engines. Government has important roles to 
play in these efforts so it is vital that Congress continues to 
fund long-lead research projects related to airframe and engine 
efficiency.
    Finally, it is important that the FAA keep up with and 
enable the pace of innovation occurring in the aerospace 
sector. One program designed to maximize FAA resources is under 
study. Government and industry are researching how to move 
toward a systems engineering approach to airplane and engine 
certification. The end result of such a move would be a better, 
more efficient certification process, one that encourages 
innovation and accelerates the incorporation of innovative 
product enhancements.
    Over the last century, the United States has been 
synonymous with global aviation leadership, and we can continue 
that legacy, but we cannot afford to rest on our laurels and 
simply say ``remember when research and development was a 
national priority.'' The research programs at the FAA and NASA 
are critical to the work of the men and women of AIAA. The 
realization of NextGen, biofuels, more efficient jet engines, 
and lighter, more aerodynamic airplanes all require 
collaboration and partnership and a reliable stream of 
government investment in aviation's future.
    Thank you again for inviting me to speak here today, and I 
look forward to discussing this topic with you further.
    [The prepared statement of Dr. Hyslop follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairman Babin. Okay. Thank you, Dr. Hyslop. I appreciate 
that. And I thank all the witnesses for your testimony, and I 
recognize myself for five minutes.
    This question is for Mr. Filler and Dr. Shin. Since 2008, 
Congress has provided more than $1.5 billion in developmental 
projects intended to explore new concepts and evaluate 
alternatives to reduce uncertainty and risk associated with 
NextGen programs. However, unlike major acquisition programs, 
these projects do not have formally approved cost and schedule 
milestones and do not receive the program oversight given to 
other procurement programs. Last year, the Department of 
Transportation's IG Office testified that the initial 2004 
estimates of $40 billion shared equally by the public and 
private sectors could double or even triple. The IG's Office 
also warned that the initial 2025 implementation date could 
slip by as much as a decade. Just this week, the IG announced a 
review of NextGen.
    In lieu of cost and schedule milestones, how do FAA and 
NASA ensure that this effort is on budget and meeting its 
objectives? Dr. Shin or Mr. Filler, whichever one of you would 
like to go first.
    Mr. Filler. NASA and FAA do coordinate through a variety of 
forums. In our research efforts--Dr. Shin is a member of our 
R&D Advisory Committee--the program he mentioned earlier, the 
ASTS, we also work on research efforts in that forum. We 
routinely receive products and technology transfers through the 
Research and Technology program, the RTTs, and integrate those 
into NextGen planning. NextGen is not a static plan that has a 
finite destination. It is constantly evolving as time 
progresses, demands change, and likewise we adapt our programs. 
But NASA and FAA do coordinate routinely, if not quarterly, 
I'll say monthly, through a variety of forums and throughout 
all our many, many levels in the agency to make sure that we 
are constantly in sync with each other.
    Dr. Shin. Yes, Chairman. Thank you for that question. NASA, 
as I mentioned in the oral testimony, is the organization that 
develops enabling revolutionary technologies, so we are indeed 
our country's depository for research and development for all 
types of aeronautics technologies. So in particular, on the air 
traffic management and safety side, we are heavily coordinating 
with FAA, and in fact, my perspective is, FAA is the most 
important customer for NASA in the civil aviation side and DoD 
is the most important partner for us in dual-use technologies.
    So as Dennis Filler just mentioned about RTTs and also I 
mentioned in the opening testimony that it is a big change for 
NASA and FAA to work together through this RTT.
    I can share stories from maybe ten years ago. We used to 
develop NASA technologies in hoping that FAA will incorporate 
and implement that. Sometimes it works, sometimes it didn't 
work because we didn't have the coordination and collaboration 
from day one. So we changed that, and that's the essence of our 
research transition team, as I mentioned. So we coordinate from 
day one that FAA air traffic controllers, managers, technical 
people work together to devise the research plan together and 
update and refine.
    So just one quick example is that EDA, we call Efficient 
Descent Advisor. This is the technology that allows aircraft to 
have a continuous descent without throttling up and down and 
following the path that is somewhat of a reverse wedding cake, 
if you will. So that saves a tremendous fuels and also reduces 
community noise. So that type of technology could save $300 
million per year in fuel savings if the technology is 
implemented across fleet and airports. So that's the kind of 
impact research that we are doing with FAA.
    Chairman Babin. Thank you very much. I appreciate that.
    Our Ranking Member, the gentlewoman from Maryland, Ms. 
Edwards, is going to allow the gentleman from Virginia, Mr. 
Beyer, to ask the first question, and I understand you have to 
leave, so I'll recognize----
    Mr. Beyer. Thank you, Mr. Chairman, and thank you, Ranking 
Member Edwards.
    Mr. Filler, I understand the FAA is starting work on a 
multiyear effort to update the scientific evidence on the 
relationship between aircraft noise exposure and its effect on 
communities around airports. This will be done by contacting 
residents by phone, by mail, and it's indicated that you'll not 
disclose which communities will be polled to preserve the 
scientific integrity of the study. According to FAA, a key goal 
of the survey is to determine whether the agency should 
reevaluate the noise metrics that it uses, and while I 
appreciate the need for scientific evidence, I remain 
incredibly concerned about the nature of the citizen complaints 
about the aircraft noise that is not being well understood.
    I represent National Airport, and we hear this every day. 
As you know, aircraft noise is currently measured on a scale 
that averages all community noise during a 24-hour period with 
a tenfold penalty on noise that occurs during night and early 
morning hours. Now, all this methodology works if you're 
looking for a long-term average noise level. It doesn't help if 
you're trying to measure the noise impact of a plane that's 
flying over your house. In that type of situation, you want to 
find a way to measure peak decibel level and frequency.
    So Mr. Filler, my question is, how will the study address 
those concerns, you know, the inability to have a picnic in 
your backyard or have a conversation on your front porch?
    Mr. Filler. Sir, I know that these considerations are being 
evaluated right now in the FAA's Environment and Energy 
program. Specifically, I can't answer your question directly. I 
don't have the technical expertise personally in this domain 
but I can assure you we'll be glad to take the question back 
and get you a more thorough answer.
    Mr. Beyer. All right. Thank you very much.
    Dr. Shin, is NASA doing any research on reducing aircraft 
noise? What can we look forward to in the future?
    Dr. Shin. Yes, that is one of our main research topics at 
NASA, as you point out, because the community noise is a big 
issue around the world, not just U.S. airports, and our issue 
is more acute because all the major airports in the United 
States are landlocked. So we have all the houses around the 
airports. And to compound the problem, as the Congressman 
accurately pointed out, it is a perception issue as well. So 
it's not entirely scientific approach. So there is an 
international noise measurement standard, so we are following 
that to reduce the noise, but still, there is a strong concern 
about communities around the airport with airplanes flying over 
their houses. So we are working both from operational 
procedures. So how can we effectively route airplanes around 
the communities to land safely but with less noise? That's part 
of that EDA that I talked about, Efficient Descent Advisor. So 
operational side, we work on that, but also vehicle side, 
engine noise. We have just--actually Boeing should take credit 
to put that Chevron nozzle which reduces the engine noise 
substantially. So we are working on also aircraft technologies 
to reduce noise.
    Mr. Beyer. And the Boeing headquarters is right next to 
National Airport, so they're motivated.
    Dr. Hyslop, yesterday the EPA announced that it's going to 
try to regulate the emissions from airplanes. Aviation is one 
of the fastest growing sources of greenhouse gases right now. 
What are we doing technologically and operationally to reduce 
the emissions from our aircraft?
    Dr. Hyslop. Thank you, Congressman. And the committee--or 
the company is very committed to reducing emissions of aircraft 
because we recognize we have that responsibility. There's a 
number of technologies that are in work, and I can highlight 
several. Dennis talked about the CLEEN program, which is a 
program we have done in conjunction and partnership with the 
FAA where we look at not only aerodynamic efficiencies to 
reduce fuel burn. We look at different materials. We just 
completed a flight test last year with a different kind of 
engine nozzle out of a ceramic material that will address 
acoustics. We've done a significant amount of work in biofuels 
looking at various forms and sources for where those biofuels 
come from, and since the number one cost of operating an 
airliner is still going to be fuel, there is a constant drive 
from us and the engine companies to become more and more 
efficient all the time, which is really why things like the 787 
Dreamliner and what really drove a lot of those technologies 
behind those aircraft and will continue to drive them into the 
future.
    So between aerodynamics and biofuels and new materials that 
would enable those, there's significant work underway in 
conjunction with FAA and NASA.
    Mr. Beyer. Thank you, Doctor, and thank you, Mr. Chairman. 
Thank you, Ms. Edwards.
    Chairman Babin. Yes, sir. Thank you, Mr. Beyer.
    And I'd like to now recognize the gentleman from 
California, Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair. I appreciate seeing Dr. 
Shin here today. It's always good to see you and hear your 
testimony. I have a couple questions about where we are and 
where we're going to be in the next ten years as far as 
airliner flight. You know, it seems like for the last 40 years, 
we've almost been stuck in the mud. In 1970, if I went to go 
across country, it probably took me 4-1/2 days. Today it takes 
me 4-1/2 hours. We're much cleaner, we do this more 
economically but we are a little bit stuck technologically.
    I know that NASA has done many programs. Back in the early 
2000s, you did a Quiet Spike program that worked on dispersing 
the sonic boom and making it so maybe we could travel across 
the country supersonic at some period of time. Is that 
something that NASA is still working toward? Is that something 
that maybe the private industry--we have about 20 billionaires 
out there that are just driving to become millionaires by 
getting into the aerospace and space industry. Maybe we want to 
incorporate some of them too to look at this.
    Dr. Shin. It's good to see you again, Congressman Knight, 
as well. Thank you for that question, because the speed will 
become important. As Chairman and both Ranking Member mentioned 
about growth in Asia Pacific region in mobility and the 
distance, as we call it, tyranny of distance, will become 
important factor in aviation. So to that end, we have been 
working--NASA has been working in developing low-boom 
supersonic flight technologies. The focus on low boom is 
because currently we have a law internationally and also in the 
United States that doesn't allow supersonic flight over land. 
So unless we change that rule to certain--meeting the certain 
target rather than complete ban, the private industry I highly 
doubt will jump into this venture. As you pointed out, there 
are many interested private industry partners who would like to 
see this new capability. So that's where NASA is focusing, 
trying to develop scientific database that by design we can 
actually build low-boom supersonic airplane, not through some 
kind of gimmicks but actual design, and then provide that 
database to FAA and international rulemaking agencies, 
organizations for their consideration to change the rule. Then 
I think our industry's ingenuity and the agility will provide 
that opening up the new capability.
    Mr. Knight. Thank you.
    And Dr. Hyslop, I've worked with AIAA. It's a great 
organization. You hit me with one of the comments that you made 
about our STEM students and our engineering students and maybe 
we're not as like we were in the 1950s and 1960s. I think that 
part of it is the advent of computers, that computers are very 
cool today, and a lot of our engineering students are going 
into that type of field as opposed to in the 1950s and 1960s 
they went on to aeronautical engineering or something like 
that. Where do you think we're dropping the ball on this? 
Because I don't know any Congressman or legislator out in the 
States that don't talk about STEM? It is the buzz phrase today. 
It is what we want. We are seeing the jump in young ladies 
being involved in engineering. I would venture to guess in 
1960, if you were a young woman and you were becoming an 
engineering student, you were one in a thousand. Today you're 
probably one in five. So we've made huge advancements in that, 
and those are just my--don't look those up but I'm betting that 
they're a lot closer. So where are we dropping the ball on 
this?
    Dr. Hyslop. Well, that's a very good question, Congressman. 
I think--I was at a STEM event with fifth graders in Houston a 
few weeks back, and we have to communicate to them the 
excitement that comes from aerospace and working on these kind 
of products and being part of these kind of teams and bring 
these products to life. But I think you really--instead of 
focusing on the student, we really have to focus on the 
teachers, and we probably need to focus on the families that 
support the student because unless you take a full rounded view 
of that to make sure the teachers are comfortable teaching 
STEM-type subjects at very low levels and that the families 
know where to get--if they can't provide the support, they know 
where they can get help to help them support that student as 
they're going through those courses.
    In my opinion, I think it's--we may be too focused on the 
student and not enough on the faculty and on the families so 
that we've got a more balanced approach to the whole issue.
    Mr. Knight. I appreciate that very much.
    Mr. Chair, I yield back.
    Chairman Babin. Yes, sir. Thank you, and well stated.
    I'd like to recognize the gentlewoman from Maryland, 
Ranking Member Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and again, 
thanks to the witnesses.
    Just a comment on the last discussion with--about STEM. The 
American Association of University Women just this last week, 
just a couple of days ago, released an amazing report about 
women and girls and their participation in STEM fields, and the 
problem that we're seeing really begins in about first grade 
where for a variety of reasons, girls make a decision very 
early on that they are not science and math students. And so we 
have to disengage from that. But the problems that actually 
continues--the problem continues through the lower grade 
levels, and then even into college and even in the workplace. 
Once a woman is in as an engineer, there're a variety of 
factors that lead to her making a decision that that's not for 
her. And so we have a lot to do because the fact is that we 
are--according to this AAUW report, we are losing a significant 
portion of our economy precisely because women and girls are 
not engaged in the STEM fields, and the 21st century, frankly, 
is all about that, whether it's in aviation or others of our 
R&D fields. And so, if there's some point at which we can have 
a hearing and really discuss the factors that are leading to 
that and how we can more greatly engage women and girls, that 
would be a good conversation. And the problem is particularly 
acute for students of color, and so we've got a lot to do. 
Otherwise we're going to lose a major part of our workforce.
    Mr. Filler, I want to go back to this issue of the plan 
that was supposed to be transmitted to the--by the President to 
the Congress 2014 and 2015, because this is very problematic. 
We're trying to look at how we engage in this next generation 
of technology for aviation but we don't even get the benefit in 
the Congress of a plan that's required by statute, not in 2014 
and not in 2015. And so can you give us a definitive date by 
which we can expect what has been due since 2014?
    Mr. Filler. Yes, ma'am. As far as a definitive date, I can 
tell you that both plans have left the FAA. The delay was 
because we totally restructured both of these plans, and 
subsequent to that, the internal coordination required to clear 
the plans took much longer than what we ever anticipated. I can 
assure you that we have in fact started on the 2016 plan.
    Ms. Edwards. Wait. Congress would like to see 2014 and 2015 
before we get to see 2016.
    Mr. Filler. Yes, ma'am, both 2014 and 2015 have left the 
Federal Aviation Administration.
    Ms. Edwards. Okay.
    Mr. Filler. Okay?
    Ms. Edwards. I hear what you're saying. I guess I'm trying 
to figure out where we should drive to pick it up and when it's 
going to be delivered to Congress, and I don't mean to be 
flippant about this but when we've required something by 
statute, it's precisely because we need that in order to be 
able to make an assessment about what we're doing on resource 
allocation and whether plans are going according to plan.
    I mean, one of my frustrations, frankly, has been since 
that I've been on this Committee and in Congress, we've been 
talking about NextGen as though it is going to be a 
transformation of the industry, and yet what we're hearing 
sounds much more like it's a little tweak here and there, a 
couple of upgrades not a transformation.
    Mr. Leber, I'm a little bit curious about the nature of 
your testimony because you focus very specifically on the 
limited scope that you had as the Academies. How should your 
work and analysis really inform what it is that we're doing?
    Mr. Leber. Thank you, Congresswoman. I encourage the 
Committee to read the report thoroughly. We clearly had 
challenges getting information, and so we--it took a while for 
the FAA, first of all, to produce the report. Then we had--we 
had asked for speakers at some of our earlier meetings. We were 
unable to obtain them. Ultimately, we did have those speakers 
address the committee, and we appreciated that. But it was 
clear to the committee that this research report was not given 
the priority we thought it deserved as something that the 
Congress specifically asked for in the reauthorization.
    Ms. Edwards. Do you think that there's a gap in terms of 
the FAA and NASA understanding the value of the Academies in 
informing how we go forward?
    Mr. Leber. Through the course of our investigation, NASA's 
work with the Academies was cited repeatedly as exemplary and 
effective. But yes, in answer to your question, Congresswoman, 
it appeared to us that there was a significant gap in the way 
the agency, the FAA, interacts with the Academy and the way 
NASA interacts.
    Ms. Edwards. Well, thank you, Mr. Chairman, and I hope we 
can explore further about the way that we close that gap 
because the Academies play an important role in us figuring out 
the direction and the critical analysis that needs to take 
place in terms of how we develop our R&D capability.
    Thank you, Mr. Chairman.
    Chairman Babin. Okay, and I'd like to recognize Mr. 
LoBiondo, the Aviation Subcommittee Chair on the Transportation 
and Infrastructure Committee.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    My question is for--questions are for Mr. Filler. With 
cybersecurity being today and increasingly becoming extremely 
critical for us as a nation, Dennis, can you tell us what is 
the Tech Center doing today? What can it be doing additionally? 
What should it be doing additionally to help deal with this 
cybersecurity problem? And then I have a UAS question if you--
depending on the time that's left.
    Mr. Filler. Thank you, Congressman. In the realm of cyber, 
currently we are working on research initiatives looking into 
the certification of aircraft technologies with cyber 
implications, how to take in and understand the current means 
and methods that are being employed, how software is developed, 
and then likewise how they are in fact tested and certified for 
use onboard aircraft systems. So that is ongoing research that 
is happening.
    Recently, we have built a cyber test facility--we call it 
the CyTF--at the William J. Hughes Technical Center. Since we 
have the capability of every operational development system 
within the National Airspace System, we are going to use the 
CyTF to look at new and emerging vulnerabilities and threats to 
existent and developmental NAS systems.
    Likewise, please keep in mind that every system that goes 
into the National Airspace System has as part of its 
foundational building blocks cyber concerns already built in to 
every platform. Cyber is not a static threat. It is dynamic and 
therefore it requires continuous evaluation and research to 
make sure that we can counter these emerging or zero-day 
threats, things that we haven't seen before. What we're doing 
is actually turning the entire Technical Center into a cyber 
test facility where we can attack each of our representative 
systems with various threats to be able to find out how our 
systems respond and then what countermeasures we have to 
develop and put into our system to be able to counter what is a 
very dynamic situation.
    In the future, we need to continue to work in large 
technologies from DoD, from DHS, and anywhere else through 
cooperative research and development agreements and make sure 
that we continue to adopt these technologies and apply them 
because that's what FAA research is all about: applying 
technologies that are out there commercially or developed 
through other governmental agencies that have the leads in many 
of these areas to make sure that we are continually ensuring 
that aviation remains safe and secure.
    Mr. LoBiondo. So is it safe to say that for the FAA, the 
Tech Center is the tip of the spear for cybersecurity issues?
    Mr. Filler. Yes, sir.
    Mr. LoBiondo. A follow-up question is, there's a lot of 
excitement and a lot of discussions about the UAS integration 
into the national airspace. Can you tell us what the FAA Tech 
Center is uniquely qualified to do in relationship to UAS 
integration?
    Mr. Filler. On UAS integration, we have a UAS laboratory, 
and it has many representative UAS systems. We have every 
system within the NAS, and so we are in fact exploring 
integration of UAS into the NAS by using very advanced 
simulation technologies to interact with existing elements of 
the NAS and then also future concepts.
    So just last year, we completed a very extensive test 
program with the Department of Defense on integrating their UAS 
into operation in the National Airspace System. It was a very 
detailed, very exhaustive, very thorough simulation that went 
through many domains of flight and looking at ways that for 
example, the Department of Defense can safely integrate UAS and 
use them in the National Airspace System. We use a very 
exhaustive test methodology to test various proofs of concepts 
and see what works and what doesn't work to assure that we have 
continued safe integration of UAS.
    Mr. LoBiondo. Thank you, Mr. Filler.
    Mr. Chairman, thank you for the opportunity to sit on the 
Committee, and as our Committee moves to the actual 
presentation of the reauthorization bill, we look to you for a 
close working relationship in a very bipartisan way with your 
Committee and the Science Committee to move forward. Thank you 
very much.
    Chairman Babin. Yes, sir. Thank you very much for visiting 
this morning and your line of questioning.
    And also we have--I'd like to recognize at this time the 
gentleman from Texas, Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I appreciate everybody 
being here today, and I wanted to ask Dr. Shin a question 
because I know that UAS integration into the NAS is an 
important facet of your work, and how does NASA's work 
contribute to FAA's ability to regulate future UAS operations?
    Dr. Shin. Yes. Thank you for that question, Congressman.
    We have started UAS integration into NAS project about five 
years ago, so we have been developing, as I mentioned in the 
opening statement, the sense-and-avoid technologies, also 
communication and human-machine interaction, and we're also 
building live virtual constructive test environment to test all 
the technologies. So we have been heavily involved in the 
rulemaking by supporting technical data and knowledge and 
technologies so that FAA and RTCA can make the rules within 
capabilities of the system. So that's what we have been working 
in very close partnership with FAA.
    Also, we have initiated last year for helping the community 
to allow safe and routine access of the small UAS at the much 
lower altitude, perhaps below 700 feet. That's where a lot of 
commerce interest is, as we've been hearing on the news media. 
So our role again is trying to provide enabling technologies 
and in partnership with FAA to allow these operations in a safe 
and effective manner.
    Mr. Veasey. And something else I wanted to ask you too is, 
how do you envision leveraging the research results from both 
the COE for UAS and the FAA test sites?
    Dr. Shin. Yes. Our project manager for UAS integration into 
NAS that I just mentioned has visited and his team has visited 
all six FAA UAS test sites, and we are evaluating what sort of 
partnership and collaboration is possible, and as I mentioned, 
we are also developing that live virtual constructive test 
environment where we can actually insert virtual aircraft, 
manned or unmanned, also with manned aircraft, and we can do 
these tests at multiple sites across the country. So that's why 
we call it live virtual constructive environment.
    I think there's a great potential for NASA to collaborate 
with these UAS test sites using that framework and so we are 
actively looking into all possibilities.
    Mr. Veasey. Okay. Thank you very much.
    My next question is for Dr. Hansman. Regarding the mixing 
of unmanned aircraft systems and manned aircraft operations, 
you indicate in your prepared statement that the future UAS 
operations will require formal concepts of operations and 
procedures for such mixing to occur. Specific to that research, 
you say that the REDAC is concerned that the ``fundamental work 
to support this has been deferred or neglected.'' Can you 
elaborate exactly on what type of fundamental work has been 
deferred or neglected and the implications of FAA not 
supporting this research?
    Dr. Hansman. Sure. So there are multiple classes of UAVs 
that have different requirements, so as Dr. Shin mentioned, 
there's a lot going on at the low altitude--low-altitude small 
UAVs. There is a current rule out for line-of-sight operations. 
There's work being done at NASA beyond line of sight. The 
bigger challenge actually occurs when you have slightly larger 
UAVs that want to operate in the airspace that manned airplanes 
want to operate on, and there's really--it's not clear what the 
right procedures are going to be. Are you basically going to 
treat them as manned airplanes, IFR targets, and have to 
operate under those rules? What happens when the operator loses 
communication with the UAV? What are the procedures and things 
like that?
    So this has been an area that's actually fundamentally 
hard, and people have been sort of doing the easy job, doing 
the low-altitude job, and they haven't really dug in on the 
fully integrated UAV and the NAS. So that was the particular 
we're worried about.
    Mr. Veasey. Thank you. Thank you very much. My time has 
expired. Mr. Chairman, I thank you.
    Chairman Babin. Thank you. Thank you very much.
    I think we'll go back through one more time a line of 
questioning, and I would like to follow up with a little bit 
that has already been talked about somewhat. We're aware of 
many recent reports that individuals claim to have been able to 
hack into airline inflight entertainment systems, taking 
control of aircrafts' flight control systems, and while these 
claims may be greatly exaggerated, again, if you'd elaborate 
more than a while ago, what is FAA, NASA and the industry doing 
to prevent this from happening? This is for Mr. Filler, Dr. 
Hyslop and Dr. Shin.
    And to follow that through, do you believe that government 
is doing enough? Because I noted in Mr. Leber's report that NRC 
has mentioned that cybersecurity should be more of a 
consideration.
    Mr. Filler. Sir, the----
    Chairman Babin. Mr. Filler.
    Mr. Filler. Thank you. The FAA takes the cybersecurity 
threat very seriously. As I mentioned earlier, yes, we do have 
active research ongoing looking at the increasing interaction 
of automation systems onboard the aircraft and the use of 
interconnected electronics. As systems become more and more 
connected, the interaction effects provide opportunities for 
new threats to emerge and be able to have vulnerabilities 
exposed. We are looking to make sure that there are no 
vulnerabilities, so as the threat changes, we're working with 
all of the agencies involved to include intelligence agencies 
on how these emerging threats are coming out and making sure 
that our current airframes and systems are maximally protected. 
Again, though, it is a very dynamic and a very challenging 
problem--it's not that you get to point X and you are done. 
It's ongoing just as each of us are equally aware of, we apply 
patches to all of our computer operating systems daily if not 
at least weekly. Likewise, we'll have to make sure that all of 
our systems are fully secured. So right now we do have very 
active, ongoing research to make sure that these threats are 
not posing any risk to aviation, and to date, we've 
demonstrated very safe and efficient flights throughout the 
National Airspace System. So, thus far we've been able to do a 
very good job.
    Chairman Babin. Thank you, Mr. Filler.
    Dr. Hyslop?
    Dr. Hyslop. Yeah, Congressman. There's close collaboration 
across the industry to ensure the entire aviation system is 
secure from a cyber perspective, and the best practices and 
threat information is shared amongst everyone on a regular 
basis.
    Speaking now for my company, in the United States, Boeing 
has led the establishment of an Aviation Information Sharing 
Analysis Center. Members include Airbus, nearly all U.S. 
domestic airlines and Air Canada and a number of other non-U.S. 
airlines as well as airports are considering membership. This 
group receives regular cyber threat briefings from all the 
appropriate agencies and the FAA plus members are able to 
rapidly share emerging threats as they see on their own 
networks with each other. So there's significant amount of 
interaction amongst industry and the governments on this 
important issue.
    Chairman Babin. Okay. Thank you.
    And Dr. Shin?
    Dr. Shin. Yes. Only a couple points to add. As we are 
introducing, as the Chairman pointed out, introducing more 
autonomous systems and more software-laden systems in the 
airplane, NASA is also working on verification and validation 
to help industry to develop the software, not only cost-
effectively but also safe and secure, and we develop a lot of 
software as well for control systems or other aircraft systems, 
so we are also ensuring that our technologies will be secure 
and safe. That's one point.
    But the second point is, through that interagency planning 
office that FAA's running in place of JPDO now has Homeland 
Security as a member, and so the overall and coordinated effort 
led by Homeland Security Department working with FAA and other 
federal agencies and industry, as Dr. Hyslop mentioned, I think 
we are doing everything we can to make airplanes safe.
    Chairman Babin. Thank you, Dr. Shin.
    And also, since the report was so critical, I'd like to let 
Mr. Leber have an opportunity to give us his view there.
    Mr. Leber. Thank you, Mr. Chairman.
    We had a specific focus on confidence and timeliness of 
implementing things in the National Airspace System. We went 
through various aspects of the report, but there was a clear 
gap there, and it was not clear to us in the report itself, the 
10-page research plan, that this issue was being adequately 
focused on. So we called it out in our recommendations.
    Chairman Babin. Okay, sir. Thank you.
    And I'd like to go through one more time here and recognize 
the gentlewoman from Maryland, Ranking Member, Ms. Edwards.
    Ms. Edwards. Thank you very much.
    I want to follow up with Dr. Hansman from the earlier line 
of questions. What are the implications of not having the 
research plan available for several years now?
    Dr. Hansman. So in terms of the NARP plan as----
    Ms. Edwards. Yes.
    Dr. Hansman. So within the REDAC, the internal elements 
have actually been briefed to the REDAC so there has been 
internal communication. So I think that from that standpoint, 
there hasn't been a problem.
    There was a bit of a problem, which I indicated in my 
report, in that there are multiple lines of funding where 
research is funded within the FAA. So there's the R&D budget, 
there's also F&E budget, airports, NAS ops. It's actually very 
difficult for us as the REDAC, and I actually think for the 
agency itself, to maintain a strategic view of its research 
portfolio because it's carved into different pieces and there 
is clearly stovepipes within the agency within different parts 
of the agency. So I do think that's a challenge for the agency 
itself and then for advisory committees like REDAC.
    Ms. Edwards. And so then that leads to the next question. 
What do you think are the key issues and research areas that 
the Committee ought to prioritize in the R&D section of FAA's 
next reauthorization, and why?
    Dr. Hansman. Well, this is now into the personal opinion. I 
think that the expectations on REDAC or expectations on NextGen 
are somewhat out of whack with reality and probably always have 
been. I think that one of the things that's not appreciated is 
how difficult it is to make improvements to a system which is 
incredibly safe and actually reasonably efficient. So the real 
challenge we have is, we have the technologies. There's no 
question we have ADS-B, we have all of the ground technologies. 
We sort of know what to do in the technical side. We actually 
have ideas on what the--how we should operate but unable to get 
those approved in a way that you can guarantee that we won't 
degrade the safety of the system is an incredible challenge, 
and I think that's why the report that Bill talked about, the 
intent of the Congress was to try to push the FAA to really 
think about that. I think that there is some institutional 
resistance to do that, and I think it's well intentioned. They 
want to maintain the safety of the system. They don't want to 
be pushed. They don't want to do things that take risk. And 
safety is the number one priority. So I think----
    Ms. Edwards. Because you're talking about developing not a 
parallel system but integrating these new technologies into an 
existing system.
    Dr. Hansman. Yeah, you have an existing system that flies 
every day, 24 hours a day, that has accident rates that are 
unprecedented in any level of transportation. So when you come 
in with some whacko new technology that someone wants to put in 
and say well, you know, let's do this, the FAA legitimately 
says well, wait a minute, okay, we need to do that. So do they 
have the--that's part of the reason for the importance of the 
research. They have to have done enough research so that they 
can say no, no, you can't do that for this reason. They also 
need to think about are there process ways that would allow 
them to test the technology, start to bring it in, in some 
evaluation way that would allow you to get it into the system 
faster than ten years from now, 20 years from now.
    Ms. Edwards. Mr. Leber, do you have a perspective about 
that or about other areas of R&D that should be prioritized?
    Mr. Leber. Well, Congresswoman, I'm not sure I can improve 
on John's eloquent expression there. I think it was spot on. 
But I will just say that we have a cultural challenge, not a 
technological challenge. We have a communications, maybe--well, 
a communications challenge, I think. So we need to find ways to 
overcome the goodness that the FAA brings in its absolute 
vanguard of safety. They are beyond successful. And that goes 
for the entire industry, not just the FAA. But we need to 
overcome our communications and cultural resistance to change 
because the world is going to change and we're going to have to 
change aviation with it if we're going to lead.
    Ms. Edwards. And then Dr. Hansman and other witnesses if 
you want, do you have a perspective on the extent to which the 
NextGen office I guess as a coordinating kind of entity is 
effectively carrying out its joint planning responsibilities? 
Is there another balance that needs to be struck?
    Dr. Hansman. I think the NextGen office is actually-- with 
its current administration has actually been doing a pretty 
good job. They--because of the pressure and because of the fact 
that NextGen is behind and hasn't delivered, as you guys have 
indicated, have shifted to a short-term focus. So it's--these 
are the things. They've clearly prioritized the things so 
that--that are short term to get something on the table, get 
some results.
    I do have a concern that you then start to lose some of the 
long-term focus, so you're not investing on the things that we 
need to do in the future or emerging opportunities or issues. 
So that would be the concern.
    Ms. Edwards. Yeah. I mean, I guess my concern as I 
expressed earlier is that sure, you do these short-term things 
but then it becomes a sort of system that's about upgrading as 
opposed to transforming.
    Dr. Hansman. Yeah, I just--if I could, I think the reality 
was, it was always going to be an upgrading instead of 
transforming, that the expectations at the beginning were 
probably unrealistic. They were aspirational, and given the 
reality of implementation, the challenges of implementation, I 
think it's--they have to do this really on a worldwide basis, 
that some of the ideas were probably a little bit aggressive. 
So I think that--and part of this is, we can't shut off the 
system. We have to run. So I think we actually have to figure 
out how to do effective, highly leveraged transitions of the 
existing system that will really improve the performance where 
you need it.
    Ms. Edwards. Thank you very much. Thank you, Mr. Chairman.
    Chairman Babin. Yes, ma'am. Thank you.
    I'd like to--oh, the gentleman from Texas is gone too and 
so is the gentleman from California. So we will--if there's 
anything else--is there anything else we need to do?
    I want to thank the witnesses for being here, for your 
testimony, and for your questions of folks here, and the record 
will remain open for two weeks for additional written comments 
and written questions from other Members.
    So without any further ado, this meeting is adjourned. 
Thank you.
    [Whereupon, at 10:27 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              

                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record




             Prepared statement of Committee Ranking Member
                         Eddie Bernice Johsnon

    Thank you, Mr. Chairman, for holding this morning's hearing on 
``Transforming America's Air Travel'' and welcome to the chairmanship 
of the Space Subcommittee. I look forward to what I hope will be a 
strong, bipartisan partnership on addressing the important space and 
aeronautics issues facing our nation.
    Mr. Chairman, as Members of Congress we fly a lot, often weekly, 
between our Districts and Washington, D.C. Like millions of other 
Americans who travel on commercial airlines, we can appreciate the 
importance of our nation's strong safety record in civil aviation.
    This record is the result of hard work and a steadfast commitment 
by the FAA and the civil aviation community to the safety of our 
nation's airspace system, and I commend them on their dedication. 
However, as a Member of both this Committee and the Transportation 
Committee, I know that the world of aviation is rapidly changing.
    New technologies and capabilities, such as unmanned aircraft 
systems, present significant opportunities for economic growth. Yet 
they also present challenges in their safe integration into the 
national airspace system.
    And, while the NextGen initiative is intended to enable our 
aviation system to respond to growing capacity, it too has its own 
challenges. Pilots and air traffic controllers will need to interact 
with new sources of information and increased use of automated systems 
that will require changes in how they make decisions.
    In short, Mr. Chairman, the changes to our aviation system will not 
be simply technological, they will be cultural. Because it is people 
who are at the heart of safety, and the ongoing transformation of 
aviation in the U.S. will require not just research and development, 
but also an evolution of our workforce and the training that we provide 
to it.
    I look forward to hearing from our witnesses on what is needed to 
foster the skills that our workforce will need in order to fulfill the 
potential of new capabilities while mitigating any risks that the 
transformation of our aviation system will involve.
    In summary, Mr. Chairman, aviation and aeronautics research is 
vital to the well-being of this nation. We need to ensure that NASA and 
FAA have the resources they will need to continue to make progress in 
the coming years.
    It is an investment that will pay dividends far into the future. 
Thank you, Mr. Chairman, and I yield back.

                                 [all]
                                 
                                 
                                 
</pre></body></html>
